Supreme Court, U.S.
FLED

WAIVER

NOV 2 2 2019
OFFICE OF THE CLERK

Supreme Court of the United States
No. 19-597
v.

Morris Reese
(Petitioner)

et al Sprint Nextel Corporation, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of-Record- for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

T-Mobile USA, Inc.

0 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a me er of the Bar of this Court. Should a response be requested,
the response will be file by a Bar member.
Signature

Wi/2 2/20/1,
(Type or print) Name Greer Novalis Shaw
Date:

0 Ms.

0 Mrs.

0 Miss

Firm Hagens Berman Sobol Shapiro LLP
Address 301 N. Lake Ave, Suite 920
City & State Pasadena, CA

Zip 91101

Phone 213-330-7145
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:
Holly Barnes, Esq. (counsel for petitioner)

Obtain status of case on the docket. By phone at 202.479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
DEC -5 2019
OFFICE O
SUPREMECOURTLERK
U.S.

